                        U.S. Department of Agriculture

                           Office of Inspector General
                                      Northeast Region




               Audit Report

          Cooperative State Research
       Education and Extension Service
Application Controls Review of the Cooperative
Research Education and Extension Management
                   System




                              Report No. 13501-01-Hy
                                           July 2005 JJ
                     UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250




July 8, 2005

REPLY TO
ATTN OF:       13501-01-Hy

TO:            Colien Hefferan
               Administrator
               Cooperative State Research Education and Extension Service

ATTN:          Louise Ebaugh
               Deputy Administrator
               Office of Extramural Programs

FROM:          Robert W. Young
               Assistant Inspector General /S/
                 for Audit

SUBJECT:       Application Controls Review of the Cooperative Research Education and Extension
               Management System


This report presents the results of our Application Controls Review of the Cooperative Research
Education and Extension Management System of the Cooperative State Research Education and
Extension Service. Your response to the official draft, dated June 1, 2005, is included as exhibit A.
Excerpts of your response and the Office of Inspector General’s position are incorporated into the
Findings and Recommendations section of the report. Based on your response, we were able to reach
management decision on the report’s 14 recommendations. Please follow your internal agency
procedures for reporting final action to the Office of the Chief Financial Officer.


Please note that Departmental regulation 1720-1 requires final action to be completed within 1 year of
management decision.


We appreciate the courtesies and cooperation extended to us by members of your staff during this
audit.

Attachment
Executive Summary
Cooperative State Research, Education, and Extension Service Application Controls
Review of the Cooperative Research, Education, and Extension Management System
(Audit Report No. 13501-01-Hy)

Results in Brief   The Cooperative State Research Education and Extension Service (CSREES),
                   an agency of the U.S. Department of Agriculture, advances knowledge of
                   agriculture, the environment and human health and well being by supporting
                   research, education, and extension programs in the Land-Grant University
                   System, and other partner organizations. CSREES does not perform actual
                   research, education, and extension, but helps fund these programs at the State
                   and local levels through its grant program. It monitors grant funding and
                   conducts much of its other business by way of Information Technology (IT),
                   principally computer applications and networks.

                   CSREES uses the Cooperative Research Education Extension Management
                   System (CREEMS) to manage its grants throughout their life cycle from
                   proposal receipt through post award review. CREEMS serves as a key
                   application in CSREES’ management of financial operations. CSREES uses
                   the system to authorize payment of federal funds and CREEMS is the source
                   of data entry into the agency’s accounting system. We evaluated CREEMS to
                   determine if adequate controls were in place and functioning effectively to
                   ensure transactions were properly authorized, accurately processed, and
                   reported.

                   We determined that CSREES had not complied with numerous information
                   system security program requirements for CREEMS. The agency had not
                   developed formal policies and procedures to govern the information security
                   program. Specifically, we found that CSREES had not (1) documented its risk
                   assessment, (2) prepared a comprehensive contingency plan, (3) provided
                   annual security awareness training to all users, (4) completed the official
                   authorization, by a designated approving agency official, to place or maintain
                   a system in operational use, (5) implemented adequate logical and physical
                   access controls, and (6) provided adequate legal notice regarding improper
                   access or use of CREEMS.

                   CSREES management recognized that IT support was not sufficient to meet
                   their overall business requirements. Accordingly, it reorganized the agency’s
                   IT functions by transferring all IT responsibilities into a single division. We
                   found that many of the individuals assigned to develop and implement
                   security policy have been with CSREES for approximately a year and that
                   many of the policy and procedure development needs have not yet been
                   addressed.



USDA/OIG-AUDIT No. 13501-01-Hy                                                                   i
                   We used security software to scan the CSREES network that houses
                   CREEMS. Our assessments identified 21 high and 35 medium IT security
                   vulnerabilities. Some examples of high vulnerabilities include administrator
                   accounts with easily guessed passwords, disabled accounts containing blank
                   passwords, and shared accesses, which were incorrectly configured to allow
                   access to the network. During our fieldwork, we provided CSREES with our
                   scan results and the agency began corrective action. Additionally, we
                   observed that CSREES did not adequately control user accounts with
                   administrative level privileges. These security issues make CREEMS less
                   reliable and more vulnerable to intentional or unintentional damage. As a
                   result, the integrity, reliability, and confidentiality of the application may be
                   jeopardized.

                   We also found that CREEMS and the other systems that comprise the
                   CSREES financial management system did not use consistent calculation
                   processes as required by Office of Management and Budget (OMB) Circular
                   A-127, “Financial Management Systems.” As a result, CSREES personnel
                   had to perform substantial, time-consuming reconciliation and data
                   consolidation between the systems before actually entering data into the
                   corporate accounting system.

Recommendations
In Brief           We recommend that CSREES take immediate steps to mitigate identified
                   risks to its IT resources. In particular, CSREES needs to develop and
                   implement policies and procedures that comply with government-wide and
                   Departmental IT security requirements. The agency should continue to
                   monitor and resolve the high and medium risk vulnerabilities identified.
                   Further, the agency should modify the IT components of its financial system
                   to use the same payment allocation processes.

Agency Response   CSREES agreed with the report’s recommendations. We have incorporated
                  excerpts from CSREES’ response in the Findings and Recommendations
                  section of this report along with the Office of Inspector General (OIG)
                  position. CSREES’ response is included as Exhibit A.

OIG Position      Based on CSREES’ response, we were able to reach management decision on
                  the report’s 14 recommendations.




USDA/OIG-AUDIT No. 13501-01-Hy                                                                    ii
Abbreviations Used in This Report

CIO         Chief Information Officer
CREEMS      Cooperative Research Education Extension Management System
CSREES      Cooperative State Research Education and Extension Service
DHHS        U.S. Department of Health and Human Services
FFIS        Foundation Financial Information System
FISMA       Federal Information Security Management Act of 2002
FMFIA       Federal Managers' Financial Integrity Act
FY          Fiscal Year
IT          Information Technology
NIST        National Institute of Standards and Technology
OCFO        Office of Chief Financial Officer
OCIO        Office of Chief Information Office
OIG         Office of Inspector General
OMB         Office of Management and Budget
OO          Office of Operations
PMS         Payment Management System
USDA        U.S. Department of Agriculture




USDA/OIG-AUDIT No. 13501-01-Hy                                           iii
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1.           CREEMS not in Compliance with Information System Security Program
                         Requirements.............................................................................................................. 3

        Finding 1             Inadequate Security and Contingency Planning for CREEMS ............................... 3
                                  Recommendation No. 1.................................................................................... 6
                                  Recommendation No. 2.................................................................................... 7
                                  Recommendation No. 3.................................................................................... 7
                                  Recommendation No. 4.................................................................................... 8
                                  Recommendation No. 5.................................................................................... 8
        Finding 2             Access Controls Were Inadequate........................................................................... 8
                                  Recommendation No. 6.................................................................................. 11
                                  Recommendation No. 7.................................................................................. 12
                                  Recommendation No. 8.................................................................................. 12
                                  Recommendation No. 9.................................................................................. 12

    Section 2. Network Vulnerability .................................................................................................. 14

        Finding 3             CSREES Did Not Complete Sufficient Vulnerability Scans ................................ 14
                                 Recommendation No. 10................................................................................ 16
                                 Recommendation No. 11................................................................................ 16
                                 Recommendation No. 12................................................................................ 17
        Finding 4             Unneeded Access Privileges to the CREEMS Domain ........................................ 17
                                 Recommendation No. 13................................................................................ 18

    Section 3. Compliance with Laws .................................................................................................. 19

        Finding 5             Manual Reconciliation of CREEMS Data Required Monthly .............................. 19
                                 Recommendation No. 14................................................................................ 21

Scope and Methodology........................................................................................................................ 22

Exhibit A – Agency Response .............................................................................................................. 23




USDA/OIG-AUDIT No. 13501-01-Hy                                                                                                                    iv
Background and Objectives
Background         Congress created the Cooperative State Research Education and Extension
                   Service (CSREES) in 1994 by combining the former Cooperative State
                   Research Service and the former Extension Service. This move united the
                   research, education and extension portfolios of both agencies, and
                   consolidated their expertise and resources under one leadership structure.

                   CSREES’ mission is to advance knowledge for agriculture, the environment,
                   human health and well-being by supporting research, education, and
                   extension programs in the Land-Grant University System, and other partner
                   organizations. CSREES accomplishes its mission by (1) helping States
                   identify and meet research, extension, and education priorities that affect
                   agricultural producers, small business owners, and youth and families; and
                   (2) providing funding to Land-Grant Universities and competitively awarded
                   grant funds.

                   CSREES provides funding to support state Agricultural Experiment Stations
                   and the Cooperative Extension System nationwide at Land-Grant
                   Universities. In most cases, the States are required to match the Federal
                   formula dollars they receive with non-federal contributions. As the U.S.
                   Department of Agriculture’s (USDA) primary extramural research agency,
                   CSREES also provides funds to researchers at institutions of higher education
                   all over the United States.

                   Cooperative Research Education Extension Management System (CREEMS)
                   manages grants throughout their life cycle from proposal receipt through
                   post-award review. CSREES uses several systems to support the financial
                   management of grant operations. These include CREEMS, U.S. Department
                   of Health and Human Services (DHHS) Payment Management System (PMS)
                   and the Foundation Financial Information System (FFIS), the USDA’s
                   corporate accounting system.

                   In June 1998, the Chief Financial Officer’s Council released a report
                   endorsing the use of one of three existing systems by the Federal government
                   for grant payments by October 1, 2002. All Department of Defense
                   organizations are to utilize the Defense Procurement Payment System. All
                   civilian Federal departments and agencies are to use one of the following two
                   systems: the Automated Standard Application for Payment System provided
                   by the Financial Management Service of the U.S. Department of the Treasury
                   or the PMS provided by the DHHS. CSREES chose to use the DHHS system.

                   CREEMS provides the grant payment authorization information that CSREES
                   personnel send to PMS. The PMS makes payments to grantees. Monthly,
                   CSREES personnel reconcile payment data from PMS and CREEMS. After

USDA/OIG-AUDIT No. 13501-01-Hy                                                                 1
                   completion of the reconciliations, CSREES’ staff enters CREEMS transaction
                   data into FFIS. In Fiscal Year (FY) 2003, CREEMS authorized the
                   disbursement of over $1 billion of Federal funds.

                   Historically, CSREES units independently acquired or developed systems to
                   fulfill their specific business needs. This disjointed approach caused
                   compatibility issues. CSREES management recognized that Information
                   Technology (IT) support was not sufficient to meet their overall business
                   requirements. Accordingly, in March 2002, CSREES management created the
                   position of Chief Information Officer (CIO) at the Deputy Administrator
                   level. All IT staff and their responsibilities were concentrated into the
                   Information System and Technology Management division headed by the
                   CIO.

                   Improving the overall management of IT resources and information security
                   has emerged as a top priority within the USDA. Computer security is needed
                   because undesirable events during computer processing can have negative
                   effects such as denial of benefits, unauthorized disclosure of sensitive
                   information, and loss of Government money or resources.

                   Various laws have emphasized the need to protect agencies’ sensitive and
                   critical data, including the Privacy Act of 1974 and the Paperwork Reduction
                   Act of 1995. Departmental responsibilities regarding information security
                   were reemphasized in the Clinger-Cohen Act of 1996 and Homeland Security
                   Presidential Directive 7, “Critical Infrastructure Identification, Prioritization,
                   and Protection.” Additionally, the Federal Information Security Management
                   Act of 2002 (FISMA) strengthened Federal Government information security
                   by reauthorizing and expanding the information security, evaluation, and
                   reporting requirements originally enacted into law as the Government
                   Information Security Reform Act, which had expired. FISMA also directed
                   the Department of Commerce’s National Institute of Standards and
                   Technology (NIST) to prescribe standards and guidelines pertaining to
                   Federal information systems.

Objectives         Our objective was to determine if adequate controls were in place and
                   functioning effectively to ensure transactions were properly authorized,
                   processed, and reported by CREEMS. Our audit included reviewing elements
                   of security, as these controls are an integral factor for ensuring the integrity of
                   the application’s operations. Specifically, we reviewed access controls, risk
                   assessment, contingency planning, security awareness training, and system
                   certification procedures. As CREEMS is part of CSREES’ financial
                   management system, we also reviewed compliance with the Federal
                   Managers' Financial Integrity Act (FMFIA).




USDA/OIG-AUDIT No. 13501-01-Hy                                                                       2
Findings and Recommendations
Section 1. CREEMS not in Compliance with Information System Security Program
Requirements

                                    CSREES had not complied with numerous information system security
                                    program requirements. We attribute this to the fact that the agency had not
                                    developed formal policies and procedures to govern the information security
                                    program. As a result, CREEMS, a major IT application, was more at risk and
                                    less capable of recovery in the event of an accident, disaster, and intentional
                                    or unintentional event. Specifically, we determined that CSREES had not
                                    (1) documented its risk assessment, (2) prepared a comprehensive
                                    contingency plan, (3) provided annual security training to all users,
                                    (4) completed the official authorization, by a designated approving agency
                                    official, to place or maintain a system in operational use, (5) implemented
                                    adequate logical and physical access controls, or (6) provided adequate legal
                                    notice regarding improper access or use of CREEMS.

                                    CSREES management recognized that IT support was not sufficient to meet
                                    their overall business requirements. In 2002, CSREES reorganized the
                                    agency’s IT functions by transferring all IT responsibilities into a single
                                    division headed by a CIO at the Deputy Administrator level. This division has
                                    been hiring staff over the ensuing period. We found that many of the
                                    individuals assigned to develop and implement security policy have been with
                                    CSREES for approximately a year and that many of the policy and procedure
                                    development needs have not yet been addressed.


Finding 1                           Inadequate Security and Contingency Planning for CREEMS

                                    CSREES had not adequately planned for the security and continued operation
                                    of CREEMS. Security requirements have not been addressed because formal
                                    policy and procedures to implement the information security program had not
                                    been developed. As a result, the agency has not identified all risks and agency
                                    managers cannot implement controls to reduce unidentified risks.
                                    Additionally, CSREES cannot be assured that it can continue business
                                    operations or timely recover the application should any threats be realized.

                                    OMB Circular A-130, 1 established a minimum set of controls to be included
                                    in automated information security programs, including performing risk
                                    assessments, establishing contingency plans and recovery procedures in the
                                    event of a disaster, establishing a comprehensive security plan, and certifying
                                    to the effectiveness of the application security controls. OMB Circular A-130 2

1
    OMB Circular A-130 Appendix III Security of Federal Automated Information Resources, dated November 2000, Section A.1.
2
    OMB Circular A-130 Section 9 a 5.



USDA/OIG-AUDIT No. 13501-01-Hy                                                                                               3
                                    further states that agencies must develop internal agency policies and
                                    procedures and oversee, evaluate, and otherwise periodically review activities
                                    for conformity with policies. We found that recently hired security staff were
                                    in the process of developing the policies and procedures.

                                    Risk Assessment

                                    The security of a system will degrade over time, as the technology evolves
                                    and as people and procedures change. NIST 800-30 3 states the risk
                                    assessment is the first process in the risk management methodology.
                                    Organizations use risk assessments to determine the extent of the potential
                                    threats and the risks associated with an IT system throughout its life cycle.
                                    The output of this process helps to identify appropriate controls for reducing
                                    or eliminating risks during the risk mitigation process.

                                    The CREEMS security plan stated that an internal risk assessment had been
                                    performed in April 2003. However, CSREES could not provide any
                                    documentation to support that the assessment was actually completed. The
                                    employee responsible for the assessment no longer works for CSREES. More
                                    significantly, without any updated documentation of risks, CSREES
                                    management cannot be assured they have taken appropriate steps to protect
                                    CREEMS.

                                    Contingency Plans

                                    Contingency planning addresses how to keep an organization’s critical
                                    functions operating in the event of disruptions, both large and small.
                                    OMB Circular A-130, Appendix III, requires managers to plan how they will
                                    perform their mission and/or recover from the loss of existing application
                                    support. Agency contingency plans should assure that there is an ability to
                                    recover and provide sufficient service to meet the minimal needs of users. We
                                    interviewed various business units about contingency planning. The units
                                    stated that without CREEMS, they doubted their ability to function or stated it
                                    would be very difficult to operate.

                                    At the conclusion of our fieldwork in August 2004, the CREEMS
                                    contingency plan was under revision. Our review of the draft contingency
                                    plan disclosed that the plan lacked sufficient detail to ensure recovery.
                                    Although CSREES made adequate plans to store their backup tapes off-site, it
                                    did not consider the hardware or software needed to recover the system.
                                    Additionally, the plan did not list the roles and responsibilities of individuals
                                    responsible for recovery activities, identify functions needing restoration, or



3
    NIST Special Publication 800-30 Risk Management Guide for Information Technology Systems, dated October 2001, Chapter 3.



USDA/OIG-AUDIT No. 13501-01-Hy                                                                                                 4
                                    establish the priority for function restoration. As a result, CSREES cannot be
                                    assured of its ability to quickly and effectively recover CREEMS.

                                    Security Awareness Training

                                    CSREES had not ensured that employees and contractors received annual
                                    security awareness training. This occurred because the agency had insufficient
                                    controls to ensure employees complied with the USDA requirement. FISMA
                                    requires awareness training to inform personnel of information security risks
                                    and their responsibilities in complying with agency policies and procedures
                                    designed to reduce these risks. OMB Circular A-130, Appendix III 4 requires
                                    that all individuals be appropriately trained to fulfill their security
                                    responsibilities before allowing them access to agency systems. The Circular
                                    notes that, over time, attention to security tends to dissipate, therefore,
                                    individuals should periodically receive refresher training to assure that they
                                    continue to understand and abide by the applicable rules. USDA cyber
                                    security guidance 5 requires awareness training be provided on an annual basis
                                    and employees acknowledge in writing the completion of annual refresher
                                    security awareness training.

                                    We compared the list of CSREES employees who received security
                                    awareness training in FY 2003 to CREEMS users and found that 71 of 243
                                    users (29 percent) had not taken the required training. Four of these users
                                    were IT staff and/or contractors involved with the application development.
                                    We also noted that CSREES did not maintain adequate evidence of training
                                    completion such as signed attendance logs or individual training certificates
                                    for on-line courses. CSREES personnel stated that the agency had obtained a
                                    verbal waiver from the USDA Office of the Chief Information Officer
                                    (OCIO), which authorized it to provide the training for these users in early
                                    FY 2004. We did not confirm the existence of the waiver with OCIO but
                                    observed that CSREES had not completed the required training by early
                                    FY 2004. Our review of training records through April 2004 revealed that
                                    none of the 71 users had received security awareness training. CSREES
                                    management was aware that some users had not completed the required
                                    security training and made the decision to allow continued access. Untrained
                                    users increase the risk of inadvertent or intentional damage to CREEMS
                                    because of their lower level of security awareness.



                                    Processing Approval Accreditation


4
    OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources, dated November 2000, Section A.3.a.2.b.
5
    Cyber Security Guidance Memorandum 015 Guidance on Computer Security Awareness Training Programs, dated April 2002, Part 1 Section 2 and
    Section 3.c.6.



USDA/OIG-AUDIT No. 13501-01-Hy                                                                                                            5
                                    Processing accreditation is the official authorization, by a designated agency
                                    approving official, to place or maintain a system in operational use. It assigns
                                    the responsibility for the safe and secure operation of the system to a
                                    designated official. The accrediting official is to base the accreditation
                                    decision on facts and supporting documentation. Accreditation represents a
                                    type of quality control. OMB Circular A-130, Appendix III 6 requires that
                                    security accreditation be completed at least every 3 years.

                                    The USDA OCIO’s Certification and Accreditation Guidance lists
                                    two phases, (1) the pre-certification phase, and (2) the certification and
                                    accreditation phase. The pre-certification phase includes identifying existing
                                    security controls and performing an initial risk assessment. The certification
                                    and accreditation phase includes conducting the Security Test and Evaluation
                                    and forwarding the certification findings to the designated approving official
                                    for an accreditation decision. Although CREEMS was implemented in 1999,
                                    a system accreditation has not been completed.

                                    The OCIO informed all USDA agencies that OMB had expressed interest in
                                    the accreditation process. Further, OMB had informed the Department that
                                    future funding of systems could be jeopardized for inadequate accreditation.
                                    OCIO established a deadline of September 2004 to obtain accreditation for all
                                    major USDA applications including CREEMS.

                                    In response to the OCIO deadline, CSREES created a project group and
                                    schedule to complete the CREEMS accreditation by July 1, 2004. Due to
                                    difficulties in obtaining contractor support, the certification and accreditation
                                    was delayed. However in an April 21, 2005, meeting CSREES officials
                                    advised us that the CREEMS certification and accreditation had recently been
                                    completed.

Recommendation No. 1

                                    Develop and implement internal agency information system security program
                                    policies and controls including processes for risk assessment, contingency
                                    planning, security awareness training and system accreditation.

                                    Agency Response.

                                    CSREES completed the Certification and Accreditation for the CREEMS
                                    application. As a result of the completion of the Certification and
                                    Accreditation of CREEMS, security policies have been reviewed and
                                    established, and the risk assessment was addressed through the development
                                    of the Risk Assessment document. Security awareness training is vigorously

6
    OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources, dated November 2000, Section A.3.b.4.



USDA/OIG-AUDIT No. 13501-01-Hy                                                                                                     6
                   pursued within the Agency as evidenced by 100 percent completion rate in
                   2004. The CREEMS system was accredited on March 30, 2005, and the target
                   date for the development of a comprehensive contingency plan is July 31,
                   2005.

                   OIG Position.

                   We accept CSREES’ management decision. For final action, CSREES needs
                   to provide the Office of Chief Financial Officer (OCFO) the CREEMS
                   processing accreditation and the comprehensive contingency plan.

Recommendation No. 2

                   Perform and document a risk assessment that meets NIST guidelines.

                   Agency Response.

                   CSREES performed and documented a risk assessment, following NIST
                   guidelines, for CREEMS on October 14, 2004.

                   OIG Position.

                   We accept CSREES’ management decision. For final action, CSREES needs
                   to provide the OCFO the risk assessment.

Recommendation No. 3

                   Develop a contingency plan based on the risk assessment including
                   arrangements for business operation without IT support and application
                   recovery procedures.

                   Agency Response.

                   CSREES has the CREEMS application recovery contingency plan internal to
                   the CREEMS in place. Additional work remains to be completed on a more
                   comprehensive plan and is detailed in the Plan of Action and Milestones
                   reported at the conclusion of the Certification and Accreditation for
                   CREEMS. The target date for the completion and validation of a
                   comprehensive contingency plan for CREEMS is July 1, 2005.

                   OIG Position.

                   We accept CSREES’ management decision. For final action, CSREES needs
                   to provide the OCFO with the comprehensive contingency plan.




USDA/OIG-AUDIT No. 13501-01-Hy                                                            7
Recommendation No. 4

                   Develop and implement procedures to suspend CREEMS access to employees
                   who do not successfully complete required security training.

                   Agency Response.

                   CSREES has developed and documented a comprehensive policy and
                   procedure for ensuring that all CREEMS users have completed the required
                   security training. There is a clear escalation plan that starts with additional
                   reminders to take the training and ends with a suspension of access to
                   CREEMS and other Agency systems in the event that Security Training
                   requirements are not met by Agency personnel. The security awareness
                   training plan was issued in October 2004.

                   OIG Position.

                   We accept CSREES’ management decision. For final action, CSREES needs
                   to provide the OCFO with the security training policy.

Recommendation No. 5

                   Implement procedures for management monitoring to ensure the timely
                   completion of work needed to support accreditation.

                   Agency Response.

                   CSREES completed the Certification and Accreditation process for CREEMS
                   on March 30, 2005.

                   OIG Position.

                   We accept CSREES’ management decision. For final action, CSREES needs
                   to provide the OCFO with the CREEMS processing accreditation signed by
                   the designated agency approving official.

Finding 2          Access Controls Were Inadequate

                   CREEMS access control settings and warning banners did not comply with
                   Department requirements and industry best practices. This occurred because
                   management controls had not been established to perform a periodic review
                   of the system configuration settings and the individuals authorized access to
                   the computer room. As a result, the application and its data were vulnerable to
                   unauthorized access, modification, or destruction.


USDA/OIG-AUDIT No. 13501-01-Hy                                                                   8
                                    Logical Access Settings

                                    We reviewed the access settings for accounts with administrative level access
                                    privileges to the CREEMS application (program) and general CREEMS
                                    application users (all other access privilege levels). In addition, we reviewed
                                    access settings to the CREEMS domain. A domain is a group of computer and
                                    other hardware devices on a network, which are administered as a unit. The
                                    domain administrator is the most trusted user and performs functions such as
                                    updating operating system software and adding or deleting users. Operating
                                    software runs the computer, performing basic tasks such as recognizing
                                    keyboard input, tracking directories, and controlling devices such as disk
                                    drives and printers.

                                    General CREEMS Application

                                    •    CREEMS has no minimum password length or content requirements.
                                         NIST guidance recommends a minimum length of six characters.7
                                    •    CREEMS has no requirement to periodically change passwords. NIST
                                         recommends periodically changing passwords. 8
                                    •    User sessions with no activity remained logged into the system for
                                         150 minutes. NIST recommends termination after 30 minutes. 9

                                    CREEMS Administrator Level Settings

                                    •    Unsuccessful login attempts are unlimited. Departmental guidance
                                         requires a limit of three unsuccessful attempts. 10
                                    •    Password lifetime is unlimited. The Department specifies a maximum life
                                         of 90 days. 11
                                    •    Administrative privilege users’ sessions remain active (i.e., open)
                                         indefinitely. NIST recommends 30 minutes. 12

                                    CREEMS Domain

                                    •    A password can be reused after one change. Departmental guidance
                                         requires five changes before reuse. 13

7
     NIST Special Publication 800-14 Generally Accepted Principles and Practices for Securing Information Technology Systems, dated
     September 1996, Section 3.11.4.
8
     Ibid
9
     NIST Special Publication 800-43 Systems Administration Guidance for Securing Microsoft Windows 2000 Professional Security, Computer Security,
     dated November 2002, Appendix B, security option 3.2.3.5.
10
     USDA Windows NT 4.0 Workstation Security Assessment Guide, dated 2001, Test 2, step 8.
11
     Ibid Test 2 step 4.
12
     NIST Special Publication 800-43 Systems Administration Guidance for Securing Microsoft Windows 2000 Professional Security, Computer Security,
     dated November 2002, Appendix B, security option 3.2.3.5.
13
     USDA Windows NT 4.0 Workstation Security Assessment Guide, dated 2001, Test 2, step 7.



USDA/OIG-AUDIT No. 13501-01-Hy                                                                                                                  9
                                     •    Account lockout duration is set to 5 minutes. The Department specifies
                                          60 minutes. 14
                                     •    Account lockout occurs after four invalid password entries. The
                                          Department specifies lockout after three invalid attempts. 15
                                     •    Once logged on to the domain, sessions remain active indefinitely. NIST
                                          recommends termination of session after 30 minutes of inactivity. 16

                                     CSREES personnel informed us that the settings had not been reviewed since
                                     they were originally established during CREEMS development, which
                                     occurred in 1999. Further, they stated that CSREES had not established a
                                     policy to periodically review access configuration settings. NIST states that
                                     periodic reassessment of security is needed. NIST guidance 17 notes that
                                     computers and the environments in which they operate are dynamic. In
                                     particular, system data, risks, and security requirements are ever changing.
                                     NIST states that strict adherence to procedures is rare and procedures become
                                     outdated over time. These issues make it necessary to periodically reassess the
                                     security of IT systems. During the course of our fieldwork, CSREES
                                     personnel informed us that they were reviewing and updating the access
                                     settings.

                                     Physical Access to CSREES Servers

                                     CSREES did not know all persons authorized to enter its computer room.
                                     Additionally, the agency had not assessed the need for continued access.
                                     CSREES did not have a policy to perform periodic reviews of computer
                                     facility access. As a result, the computer facility that houses CREEMS is
                                     vulnerable to physical damage.

                                     CSREES’ computer room is part of USDA’s Headquarters facility. USDA
                                     Office of Operations (OO) provides facilities management services and
                                     operations for all activities in and around the Washington Metropolitan Area
                                     and USDA Headquarters. This includes maintaining the electronic key access
                                     to areas within the USDA Headquarters facility.

                                     We obtained a list of persons with access to the computer room, from OO.
                                     This list showed 70 individuals were authorized access to the computer
                                     facility. CSREES records showed only 24 individuals had access to the
                                     computer room. CSREES personnel stated that they had not established a
                                     policy to perform access reviews.

14
     Ibid, Test 2 step 9.
15
     Ibid, Test 2, step 8.
16
     NIST Special Publication 800-43 Systems Administration Guidance for Securing Microsoft Windows 2000 Professional Security, Computer Security,
     dated November 2002, Appendix B, security option 3.2.3.5.
17
     NIST Special Publication 800-14 Generally Accepted Principles and Practices for Securing Information Technology Systems, dated September 1996,
     Section 2.7.



USDA/OIG-AUDIT No. 13501-01-Hy                                                                                                                 10
                                   During our fieldwork, we provided CSREES with the OO listing for their
                                   review. CSREES personnel informed us that they could not identify 48 of the
                                   names on the OO listing but thought some may have been former contractors,
                                   construction workers or electricians. Additionally, they reported that CSREES
                                   no longer employed 8 of the 24 individuals on the computer room access list
                                   they had provided us.

                                   During our audit, CSREES personnel reported that they had coordinated with
                                   OO and updated the computer room access. CSREES has authorized
                                   computer room access for 27 individuals.

                                   Network Access Warning Banner May Not Be Legally Sufficient

                                   Our review determined that CSREES did not provide an adequate warning
                                   banner in its introduction to the CSREES network. The lack of an adequate
                                   warning banner places CSREES at risk, since legal action for improper access
                                   or use of CREEMS will be limited because of inadequate notice.

                                   OCIO issued required language for warning banners for all USDA networks.
                                   Our review revealed that the CSREES warning banner did not include the
                                   language required by USDA. 18 Specifically, the CSREES banner did not
                                   include reference to statutes and potential fines or imprisonment.
                                   Additionally, CSREES had determined to place the banner on each
                                   workstation rather than upon entry to the CSREES network. The banner
                                   installation had not been completed for all workstations.

                                   The current security officer was unaware that the warning banners were
                                   installed at the workstation level rather than the network entry points.

Recommendation No. 6

                                   Review and modify CREEMS logical access settings for the application to
                                   meet with NIST standards, Departmental regulations and industry best
                                   practices.

                                   Agency Response.

                                   CSREES has revised its existing access settings for CREEMS as of December
                                   5, 2004. The access settings are in compliance with accepted standards,
                                   regulations and best practices.

                                   OIG Position.


18
     Cyber Security Guidance Memorandum 017 Required Language for Agency Warning Banners, dated December 2002.



USDA/OIG-AUDIT No. 13501-01-Hy                                                                                   11
                   We accept CSREES’ management decision. For final action, CSREES needs
                   to provide the OCFO with the revised access settings.

Recommendation No. 7

                   Develop and implement management controls for the CREEMS domain to
                   ensure compliance with NIST standards and Departmental regulations,
                   regarding configuration settings.

                   Agency Response.

                   CSREES revised the CREEMS network domain management controls on
                   December 5, 2004, as part of the Certification and Accreditation process. The
                   management controls implemented are consistent with Departmental
                   regulations and NIST standards, regulations regarding best practices.

                   OIG Position.

                   We accept CSREES’ management decision. For final action, CSREES needs
                   to provide the OCFO a copy of the domain management controls.

Recommendation No. 8

                   Develop and implement management controls to ensure procedures are in
                   place to periodically review computer room access privileges. The procedures
                   should include eliminating privileges for individuals no longer needing
                   computer room access.

                   Agency Response.

                   CSREES has developed policies and procedures, effective March 2004, to
                   ensure that computer room access is reviewed on a periodic basis and
                   modified as necessary. A point of contact was assigned in April 2004.

                   OIG Position.

                   We accept CSREES’ management decision. For final action, CSREES needs
                   to provide the OCFO a copy of the computer room access policies and
                   procedures.



Recommendation No. 9




USDA/OIG-AUDIT No. 13501-01-Hy                                                               12
                   Develop and implement management controls to ensure the installation of a
                   warning banner containing the required Departmental language at the network
                   entry points.

                   Agency Response.

                   CSREES completed this requirement on December 5, 2004.

                   OIG Position.

                   We concur with the management decision. For final action, CSREES needs to
                   provide the OCFO a copy of the banner and policies for banner installation.




USDA/OIG-AUDIT No. 13501-01-Hy                                                             13
Section 2. Network Vulnerability

                                     Our vulnerability scans disclosed weaknesses in CREEMS security
                                     administration. We found (1) a number of risk indicators that could be
                                     exploited from inside and or outside the network, and (2) individuals with
                                     administrative level access privileges, which they did not need. As a result,
                                     CREEMS is vulnerable to cyber-related attacks, jeopardizing the integrity,
                                     reliability and confidentiality of the application.

                                     To conduct our assessment we used two commercially available software
                                     products: one designed to identify over 1,300 vulnerabilities associated with
                                     various operating systems that use Transmission Control Protocol/Information
                                     Protocol, and the other, which tests the system policy settings of the operating
                                     system.

Finding 3                            CSREES Did Not Complete Sufficient Vulnerability Scans

                                     CSREES did not perform sufficient vulnerability scanning of the network
                                     used by CREEMS. The agency had installed the Department mandated
                                     scanning software on old equipment, which was unable to scan the entire
                                     network. Our scans of the network segment used by CREEMS disclosed a
                                     large number of risk indicators that could be exploited from both inside and
                                     outside the network. As a result, CSREES was vulnerable to cyber-related
                                     attacks, jeopardizing the integrity and reliability of the CREEMS application.

                                     OMB Circular A-130. Appendix III 19 requires agencies to assess the
                                     vulnerability of information assets, identify threats, quantify the potential
                                     losses from threat realization, and develop countermeasures to eliminate or
                                     reduce the threat or amount of potential loss. Furthermore, the OCIO
                                     established a policy 20 that agencies regularly scan their system for known
                                     vulnerabilities using a Department purchased vulnerability-scanning tool.
                                     CSREES officials stated that the agency performed periodic scanning.
                                     However, our scans identified a large number of risk indicators.

                                     During March 2004, we scanned 21 six network components, including the
                                     local area networks located in Washington, D.C. used by the CREEMS
                                     production and development environments. While our scan identified
                                     vulnerabilities, we did not attempt to determine whether the vulnerabilities
                                     have been exploited.



19
     OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources, Section B, dated November 30, 2000.
20
     “Cyber Security Manual” Departmental Manual 3500-2, Chapter 6, Part 1, dated April 4, 2003.
21
     Office of Inspector General (OIG) used the same tool specified by the OCIO.



USDA/OIG-AUDIT No. 13501-01-Hy                                                                                                    14
                   Our scans disclosed that a developmental server contained the majority of the
                   vulnerabilities identified. This server was located on the same network as the
                   production environment, thereby exposing all other components in the
                   network to potential system threats. A breakdown of the vulnerabilities
                   identified is shown below.

                                 Hosts
                                 Scanned       High        Medium         Low         Total
                   Internal      6             21          35             46          102
                   External      6             0           5              0           5
                  High-risk vulnerabilities allow immediate remote or local access, or
                  immediate execution of code or commands with unauthorized privileges.
                  Medium risk vulnerabilities have the potential of granting access or allowing
                  code execution by means of complex or lengthy exploit procedures, or low
                  risk issues applied to major Internet components. Low risk vulnerabilities
                  deny service or provide non-system information that could be used to
                  formulate structured attacks on a target, but not directly gain unauthorized
                  access.

                   The high-risk access vulnerabilities that threaten the CREEMS application
                   included:

                   •   Administrator accounts had passwords that were easy to guess. The
                       administrator is the most trusted user of the system and can perform any
                       function in the environment. This could allow an attacker to obtain or
                       possibly alter the information being stored on the network.

                   •   Disabled accounts contained blank passwords, which could enable
                       attackers access to network resources, including the ability to take over
                       and replace processes, and to access other computers on the network.

                   •   The operating system had an error, which could allow an attacker to run
                       programs including malicious code (e.g., viruses and worms) and execute
                       arbitrary code on the system. As a result, an attacker could execute
                       commands to freely access a system and take over or destroy any critical
                       or sensitive data maintained on the systems.

                   •   Shared accesses were incorrectly configured and allowed access to the
                       entire hard drive. This could allow attackers to easily obtain or change
                       system information and gain information about open connections with
                       other systems. An attacker could also use this information to disable the
                       system.

                   During our fieldwork, we provided CSREES with our scan results in order to
                   permit the immediate initiation of corrective action. CSREES staff stated that

USDA/OIG-AUDIT No. 13501-01-Hy                                                                15
                   they had been unable to fully scan the CSREES network because the scanning
                   software was installed on old equipment with limited memory. They noted
                   that only 64 of 400 computers could be scanned at a time and that the process
                   was “barely” completed overnight. Further, they stated that the agency had
                   not issued any written implementation guidance for the scanning policy. In
                   April 2004, CSREES security staff reported that the hardware with increased
                   memory was available. They provided a scanning report, dated May 20, 2004
                   of the same six network components OIG had scanned. The CSREES scan
                   disclosed 7 high, 65 medium, and 155 low vulnerabilities. OIG did not verify
                   the results of this scan. CSREES officials attributed the increase in medium
                   and low risk vulnerabilities to an updated version of vulnerabilities. This
                   further demonstrates the need for regular, periodic vulnerability scanning.

Recommendation No. 10

                   Take immediate action to correct all high and medium risk vulnerabilities
                   identified by our vulnerability scans. Require IT officials to track each
                   vulnerability and certify that actions have been taken to remedy the problem
                   for all vulnerabilities identified by our scans.

                   Agency Response.

                   CSREES has developed both policies and procedures to address periodic
                   network/system vulnerability scans. At the conclusion of each scan, the
                   results are reviewed and addressed by the responsible groups under the
                   direction of the CSREES security officer. Based on the latest network scan
                   conducted on May 2, 2005, CREEMS has zero high or medium
                   vulnerabilities.

                   OIG Position.

                   We concur with the management decision. For final action, CSREES needs to
                   provide the OCFO a copy of the May 2, 2005, scans showing zero high and
                   medium vulnerabilities.

Recommendation No. 11

                   Assess low-risk vulnerabilities to identify trends and initiate actions on those
                   areas in the aggregate that could lead to more serious vulnerabilities.

                   Agency Response.

                   At the conclusion of monthly scans, CSREES reviews all vulnerabilities and
                   if necessary, takes action. During the review of scan results, CSREES
                   evaluates the recurring low-risk vulnerabilities each time with the intent of
                   eliminating them during the normal course of applying patches and software
                   upgrades.
USDA/OIG-AUDIT No. 13501-01-Hy                                                                  16
                                    OIG Position.

                                    We concur with the management decision. For final action, CSREES needs to
                                    provide the OCFO a copy of the scanning policies and procedures including
                                    requirements to assess scan results.

Recommendation No. 12

                                    Prepare and implement written procedures to conduct monthly scanning of all
                                    resources within the production environment and to perform corrective action
                                    on the vulnerabilities identified.

                                    Agency Response.

                                    CSREES completed on May 2, 2005, the policies and procedures required to
                                    support both monthly scans and action plans for any identified vulnerabilities
                                    for all environments.

                                    OIG Position.

                                    We concur with the management decision. For final action, CSREES needs to
                                    provide the OCFO a copy of the scanning policies and procedures.


Finding 4                           Unneeded Access Privileges to the CREEMS Domain

                                    Individuals had unneeded administrative level access privileges to the
                                    CREEMS domain. CSREES’ IT staffs were unaware of individual user access
                                    privileges because a policy to periodically review access had not been
                                    established. As a result, higher risks of intentional or inadvertent damage to
                                    the operating systems of the computers that house CREEMS exist.

                                    A domain is a group of computers and other hardware devices on a network,
                                    which is administered as a unit. The domain administrator is the most trusted
                                    user and performs functions such as updating operating system software and
                                    adding or deleting users. Operating software runs the computer, performing
                                    basic tasks such as recognizing keyboard input, tracking directories, and
                                    controlling devices such as disk drives and printers. The CREEMS domain
                                    consists of seven servers, including the production and test servers, which
                                    house the CREEMS application.

                                    OMB Circular A-130. Appendix III 22 states that a number of controls are

22
     OMB Circular A-130, Appendix III, Section B, November 30, 2000.



USDA/OIG-AUDIT No. 13501-01-Hy                                                                                 17
                   used to prevent and detect harm to systems. Controls include the use of “least
                   privilege,” which is the practice of restricting a user's access to the minimum
                   necessary to perform his or her job.

                   We used software to scan the policy settings for the CREEMS domain. The
                   software identified 20 user accounts that had administrator level privileges for
                   at least a portion of the CREEMS domain. We observed that one of the
                   accounts was assigned to a person no longer employed by CSREES.
                   Additionally, we identified two accounts that were not assigned to individuals
                   (e.g., guest account), a condition that made it difficult to assign accountability
                   (i.e., determine the tasks individuals performed). These results indicate
                   CSREES did not always adequately restrict the use of the most trusted access
                   privilege.

                   We provided CSREES with our scan results in order to permit a more
                   thorough review of the accounts with administrative level privileges. In
                   June 2004, CSREES’ staff informed us that the number of accounts with
                   administrative privileges had been reduced to four. They stated the accounts
                   were originally granted to individuals when CSREES was being designed and
                   implemented. As the application is operational the number of individuals
                   needing administrator level of access has dropped. They stated that they had
                   not performed any access reviews prior to our audit because a review policy
                   had not been established. We reviewed the four accounts and determined a
                   need for access existed.

Recommendation No. 13

                   Prepare and implement written procedures to conduct periodic reviews of
                   CREEMS domain access privileges.

                  Agency Response.

                  As of May 2, 2005, CSREES had developed and implemented written
                  procedures for handling domain access privileges.

                  OIG Position.

                  We concur with the management decision. For final action, CSREES needs to
                  provide the OCFO a copy of domain access review procedures.




USDA/OIG-AUDIT No. 13501-01-Hy                                                                    18
Section 3. Compliance with Laws

Finding 5                             Manual Reconciliation of CREEMS Data Required Monthly

                                      Payment information within the different systems that comprise the CSREES
                                      financial management system did not agree because the systems use different
                                      processes to allocate payments. As a result, CSREES personnel perform
                                      substantial, time-consuming manual reconciliations before entering data into
                                      USDA’s corporate accounting system FFIS.

                                      The FMFIA requires each agency to establish accounting and administrative
                                      controls to permit the preparation of reliable financial reports. 23
                                      Implementation instructions issued in OMB Circular A-127 24 require that
                                      agency financial management systems provide financial information in a
                                      timely and useful fashion. The Circular defines an integrated financial system
                                      as a unified set of financial systems and the financial portions of mixed
                                      systems 25 necessary to manage agency financial operations. Financial
                                      management includes reporting the agency's financial status to central
                                      agencies, Congress, and the public. Further, the Circular requires that
                                      common processes shall be used for processing similar kinds of transactions
                                      throughout the system to enable the transactions to be reported in a consistent
                                      manner.

                                      CSREES uses several systems to manage and account for grant operations.
                                      These include CREEMS, the PMS operated by DHHS and FFIS. CREEMS
                                      functions include authorizing grant payments and providing the obligation
                                      and disbursement data, which CSREES personnel enter into FFIS. CREEMS
                                      provides the grant payment authorization information that CSREES personnel
                                      enter into PMS. The PMS makes payments to grantees. Annually PMS
                                      processes over 5,000 payments disbursing in excess of $1 billion for
                                      CSREES. FFIS is USDA’s corporate administrative financial management
                                      information system implemented by the USDA OCFO.

                                      CSREES officials stated that CREEMS had not been reviewed for compliance
                                      with Federal financial reporting requirements since it was not a financial
                                      system. They stated CSREES used FFIS as their accounting system as
                                      required by the OCFO. We concluded that the CREEMS is a “mixed system,”
                                      as defined by OMB Circular A-127, because it is the source of financial data
                                      entered into FFIS. Our review revealed that CSREES’ financial management
                                      systems did not comply with the requirements regarding standardized


23
     FMFIA (P.L. 97-255) Section 1.
24
     OMB Circular A-127 Financial Management Systems dated July 1993, Section 7.e.
25
     Mixed system means an information system that supports both financial and non-financial functions.



USDA/OIG-AUDIT No. 13501-01-Hy                                                                                    19
                                      processing among system components or timely reporting of financial
                                      information.

                                      PMS allocates the usage of funds differently than CREEMS in certain
                                      instances. These cases involve grants funded from different budget authorities
                                      or where funding authority is for more than 1 year. For example, as shown in
                                      the following table, in a case where both 1 year 26 and multiple years’ sources
                                      funded a grant, CREEMS applies all payments to 1 year funding source first.
                                      In contrast, PMS applies payments on a pro rata basis, which is the percentage
                                      that 1 year funding represents of the total grant.

                                      Assume a $30,000 grant funded as follows with an initial funds distribution
                                      of $1,500.

                                      Funded from appropriations available for 1 year        $ 10,000
                                      Funded from appropriations available for 2 years       $ 20,000

                                      Allocation of Funds
                                                                            CREEMS          PMS

                                      1 year funding                        $1,500          $ 500
                                      2 years funding                       $ 0             $1,000

                                      Prior to data entry into FFIS, CSREES personnel reconcile the payment data
                                      between CREEMS and PMS. Additionally, they perform manual
                                      consolidation of data for entry into FFIS. This is a labor-intensive process that
                                      takes considerable time. For example, we observed that it took 5 weeks, until
                                      April 8, 2004, to enter $56 million of February 2004 research grant
                                      expenditures into FFIS. CSREES personnel stated delays of this nature occur
                                      every month for the research grants.

                                      OMB established November 15, 2004, as the due date for the annual
                                      performance and accountability report, which includes the USDA
                                      consolidated financial statements. OCFO issued a schedule of financial
                                      management milestones stating that the USDA consolidated statements would
                                      be submitted for auditor review by October 28, 2004.

                                      A 5 week delay in FFIS data entry for September’s activities would result in
                                      some CSREES transactions not being included in the financial statements.
                                      Accordingly, CSREES personnel stated they had to provide an estimate rather
                                      than actual data for a portion of September transactions. The use of estimates
                                      rather than actual transaction data increases the risk of misstatement in
                                      financial reporting. Misstatement may arise from using inadequate data or

26
     One year funding must be used within the federal FY the grant was authorized.



USDA/OIG-AUDIT No. 13501-01-Hy                                                                                      20
                                      inappropriate estimation methods. The estimate for CSREES transactions was
                                      well below the materiality level 27 established for the USDA consolidated
                                      financial statements, therefore, OIG did not modify its opinion on the
                                      FY 2004 financial statements. However, we concluded that as of
                                      September 30, 2004, the CSREES financial management system was not in
                                      compliance with the FMFIA because of the inconsistent processing
                                      procedures used by the financial system components. CSREES officials
                                      informed us that, as of April 2005, they are working to ensure that CREEMS
                                      and PMS use the same allocation methodology and the noncompliance will be
                                      eliminated by July 1, 2005.

Recommendation No. 14

                                      Modify the financial management systems to ensure that all components use
                                      the same payment allocation processes.

                                      Agency Response.

                                      CSREES has been working with the DHHS-PMS staff to change the
                                      allocation methodology used by the DHHS-PMS (to correspond with the
                                      allocation methodology used by CREEMS) to process payments when
                                      multiple financial data codes and Treasury Symbols are involved. CSREES
                                      Funds Management and CREEMS staff met with the DHHS-PMS staff on
                                      May 2, 2005, to review the results of a pilot test, implementing the new
                                      allocation methodology. The target date for implementation of the new
                                      allocation methodology by the DHHS-PMS for CSREES grants is
                                      June 30, 2005.

                                      OIG Position.

                                      We concur with the management decision. For final action, CSREES needs to
                                      provide the OCFO a copy of the revised allocation procedures and evidence
                                      of implementation by DHHS.




27
     The magnitude of an item's omission or misstatement in a financial statement that, makes it probable that the judgment of a reasonable person relying
     on the information would have been changed or influenced by the inclusion or correction of the item.



USDA/OIG-AUDIT No. 13501-01-Hy                                                                                                                        21
Scope and Methodology
                   Our review was part of a nationwide audit of seven USDA agencies with
                   major applications. Systems were selected from a USDA OCIO prepared
                   listing of 123 major systems. We reviewed controls established by CSREES
                   to ensure that the CREEMS application transactions were properly
                   authorized, processed and reported. We conducted our review at the CSREES
                   Headquarters located in Washington, D.C. We reviewed the controls in place
                   at the time of our audit. We conducted our review through interviews, review
                   of CSREES procedures and records, examination of CREEMS system
                   settings, and by observation. We used commercially available software
                   applications to assist us in our review. We identified vulnerabilities in
                   CREEMS, but did not perform tests to determine whether the vulnerabilities
                   had been exploited.

                   To accomplish our audit objectives, we:

                   •   Reviewed agency, Departmental, and other federally mandated IT security
                       policies and procedures;

                   •   Interviewed CSREES officials responsible for managing the agency’s IT
                       systems;

                   •   Interviewed CREEMS users throughout CSREES;

                   •   Performed vulnerability scans on the CREEMS domain networks using
                       commercially available operating system vulnerability software; and

                   •   Performed detailed testing of CREEMS system settings and application
                       security controls.

                   Audit fieldwork was performed from March 2004 through August 2004. The
                   audit was conducted in accordance with Generally Accepted Government
                   Auditing Standards.




USDA/OIG-AUDIT No. 13501-01-Hy                                                              22
Exhibit A – Agency Response
                                 Exhibit A - Page 1 of 6




USDA/OIG-AUDIT No. 13501-01-Hy                        23
                                 Exhibit A - Page 2 of 6




USDA/OIG-AUDIT No. 13501-01-Hy                        24
                                 Exhibit A - Page 3 of 6




USDA/OIG-AUDIT No. 13501-01-Hy                        25
                                 Exhibit A - Page 4 of 6




USDA/OIG-AUDIT No. 13501-01-Hy                             26
                                 Exhibit A - Page 5 of 6




USDA/OIG-AUDIT No. 13501-01-Hy                         27
                                 Exhibit A Page 6 of 6




USDA/OIG-AUDIT No. 13501-01-Hy                           28
